2

3ht tlje Supreme Court of tfje 30mte& States;
HEON SEOK LEE, PETITIONER
v.
UNITED STATES OF AMERICA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I HEREBY CERTIFY, pursuant to Supreme Court Rule
29.5(b), that on November .22., 2019, copy of the Petition for
Writ of Certiorari was sent by DHL or First Class mail to the
Solicitor General of the United States, Room 5614,
Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001. All parties required to be
served have been served. Respectfully submitted on
November .£>--2019.

TleohSeok Lee, pro se J
hslee@ktjMrbo.com, (630) 406-1473,
1183 Pierson Dr, Unit 118, Batavia, IL 60510

